        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Prince George's County Department
of Housing and Community
Development – Weatherization
Assistance Program Funds Provided
by the American Recovery and
Reinvestment Act of 2009




OAS-RA-13-05                     January 2013
                                Department of Energy
                                  Washington, DC 20585

                                      January 17, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY



FROM:                   Rickey R. Hass
                        Deputy Inspector General
                          for Audits and Inspections
                        Office of Inspector General

SUBJECT:                INFORMATION: Examination Report on "Prince George's County
                        Department of Housing and Community Development —
                        Weatherization Assistance Program Funds Provided by the American
                        Recovery and Reinvestment Act of 2009"

BACKGROUND

The attached report presents the results of an examination of the Prince George's County
(County) Department of Housing and Community Development's implementation of the
American Recovery and Reinvestment Act of 2009 (Recovery Act) Weatherization Assistance
Program (Weatherization Program). The Office of Inspector General (OIG) contracted with an
independent certified public accounting firm, Lani Eko & Company, CPAs, PLLC, (Lani Eko) to
express an opinion on the County's compliance with Federal and State laws, regulations and
program guidelines applicable to the Weatherization Program. The County is a sub-recipient of
the Department of Energy's (Department) Recovery Act Weatherization Program funding for the
State of Maryland.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Program received $5 billion to reduce energy consumption for low-income
households through energy efficient upgrades. The State of Maryland Department of Housing
and Community Development (State) received $61 million in Recovery Act Weatherization
Program funding, of which $2.1 million was allocated to the County. The State was responsible
for administering Weatherization Program grants, including funds provided to the County.

OBSERVATIONS AND CONCLUSIONS

Lani Eko disclaimed an opinion on whether the County had complied with the requirements and
guidelines relative to the Weatherization Program. In May 2011, the former County Director of
the Department of Housing and Community Development in charge of the Weatherization
                                                2
Program pled guilty to conspiracy to commit extortion in taking bribes from developers on
housing projects. Although the charges were unrelated to weatherization, the County Director
was directly responsible for management of the Weatherization Program.

The County expressed disagreement with the disclaimer of opinion. Specifically, the County felt
that the disclaimer of opinion was unwarranted, given that there have been no connections made
between the named official's actions and the Weatherization Program or its staff. However, the
former County Director was in charge of the Weatherization Program during the period of the
review. The County's comments are included in Attachment 2. In addition to the County's
comments, the State and Department provided responses.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

The Department reviewed the subject report and offered commentary. As a result of the OIG
audit and the ongoing monitoring procedures, the Department's Project Officer for the Maryland
Weatherization Program reviewed State and County operations in January 2011 and the County's
contracting process in June 2011. The Department monitoring reports did not list any concerns
or findings related to the programs operations or the processes used to select weatherization
contractors.

The State shared in Prince George's County's dissatisfaction with Lani Eko's decision to issue a
disclaimer of opinion after conducting audit activities throughout the duration of the bribery and
corruption proceedings against the County Director of the Department of Housing and
Community Development. The State has examined Prince George's County's operations and has
not detected an impropriety.

The comments provided by the Department were responsive to the concerns raised in the report.
Lani Eko considered State and Department reviews in issuing the opinion; however, it
disclaimed the opinion on the Weatherization Program when the individual related to the fraud
was convicted.

EXAMINATION-LEVEL ATTESTATION

Lani Eko conducted its examination in accordance with attestation standards established by the
American Institute of Certified Public Accountants as well as those additional standards
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. The examination-level procedures included gaining an understanding of the County's
policies and procedures and reviewing applicable Weatherization Program documentation. The
procedures also included an analysis of inspection results, records of corrective actions and re-
inspections of completed homes/units to ensure any failures were properly corrected. Finally, an
analysis of associated cost data was conducted to test the appropriateness of payments.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances where Lani Eko did not comply, in all
material respects, with attestation requirements. Lani Eko is responsible for the attached report
dated December 19, 2012, and the conclusions expressed in the report.
                                 3
Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Under Secretary of Energy
    Chief of Staff
                                                      Attachment 1




 Report on Examination Level Attestation Engagement

                         Of

               Prince George's County

Recovery Act Weatherization Assistance Program Funds



     Performed for the U.S. Department of Energy
             Office of Inspector General

                       Under

          Contract Number: DE-IG0000015
          Work Order Number: 10-215-06



                         By



         Lani Eko & Company, CPAs, PLLC



                 December 19, 2012
Attachment 1 (continued)
                                                                       Attachment 1 (continued)


       SECTION I. Description of Prince George's County Department of Housing and
             Community Development Weatherization Assistance Program

The U.S. Department of Energy awarded $61,441,745 to the State of Maryland to allocate among
its network of 18 local governments and various nonprofit organizations participating in the
Weatherization Assistance Program (Weatherization Program). From this award, $2,100,000
was allocated to Prince George's County (County) Department of Housing and Community
Development (DHCD) to assist with the costs of weatherizing approximately 246 homes. In
Maryland, the Weatherization Program is administered by the State Department of Housing and
Community Development (State DHCD).

DHCD partners with the State DHCD to operate the Weatherization Program. In accordance
with the terms of this agreement, the County is responsible for determining applicant eligibility
and taking the necessary steps to weatherize the applicant's home. These steps include
procurement of contractor's services as well as conducting home assessments and inspections.

The Weatherization Program helps eligible low-income households lower their energy costs by
increasing energy efficiency. The primary focus is on the problems of heat loss and air
infiltration. Energy conservation and efficiency methods utilized by the Weatherization Program
include measures that reduce energy consumption and the cost of maintenance for weatherized
homes. In addition to the material improvements, energy conservation education is provided to
participants. For the period from April 1, 2009 through December 31, 2010, DHCD reported
that it had completed weatherization of 66 units under the Weatherization Program.




                                               2
                      Attachment 2


MANAGEMENT COMMENTS




         3
    Attachment 2 (continued)




4
    Attachment 2 (continued)




5
    Attachment 2 (continued)




6
    Attachment 2 (continued)




7
    Attachment 2 (continued)




8
                                                                 IG Report No. OAS-RA-13-05

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit or inspection would have been helpful to the reader in
      understanding this report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report that would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
